OIG Investigative Reports, Student Loan Fraud Indictment Announced
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
NEWS RELEASE:
Ohio January, 2003
United States Attorney
Northern District of Ohio
Emily M. Sweeney
United States Attorney
James G. Lynch
Assistant United States Attorney
(216) 622-3546
Student Loan Fraud Indictment Announced
Emily M. Sweeney, United States Attorney for the Northern District of Ohio, today announced that a federal grand jury in Cleveland returned a two-count Indictment against Willie J. Reed, charging him with fraud on the Department of Education and use of a false Social Security number.
Reed, age 27, formerly resided at 27100 Tungsten Avenue, Euclid, Ohio.
The indictment alleges that beginning in 1996 through 1997, Reed applied for and received federal student aid loans, insured loans, and grants to assist him as a student at Kent State University. Sometime late in 1997, Reed left Kent State University and defaulted on the loans he had received, thereby making him ineligible to receive any further federal student aid.
The indictment further alleges that Reed enrolled at Cleveland State University in August, 1999, and applied for student aid using false information to disguise his identity, and obtained by fraud, funds and assets provided and insured by the Department of Education and National City Bank totaling $9,750.00. Reed is alleged to have received refund checks from Cleveland State University, including one in the amount of $3,775.64, on January 21, 2000. He is charged with using a false Social Security number on October 25, 1999 when he applied for a federally insured student loan.
The charges are in violation of Title 20, Section 1097(a), student loan fraud (count 1), and Title 42, Section 408(a)(7)(B), use of a false Social Security number (Count 2). Each violation carries a maximum penalty of 5 years imprisonment and/or a fine of $250,000.
The case was presented to the grand jury by Assistant U. S. Attorney James C. Lynch following an investigation by agents of the U. S. Department of Education, Office of Inspector General, Chicago, Illinois.
An indictment is only a charge and is not evidence of guilt. A defendant is entitled to a fair Trial in which it will be the government's burden to prove guilt beyond a reasonable doubt.
Top
Printable view
Share this page
Last Modified: 03/03/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov